          Office of Inspector General




May 4, 2005

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Inspection Service’s Controls Over
         Firearms (Report SA-AR-05-003)

This capping report presents summary results of our self-initiated audit of the Postal
Inspection Service’s Controls Over Firearms (Project Number 03BN001OA000).
Specifically, this report includes: (1) our most recent assessment of the Postal
Inspection Service’s task force results, (2) the National Firearms and Ruger Task Force
results from its 100 percent physical inventory of all Postal Inspection Service owned
and authorized firearms conducted from June to November 2003, and (3) results from
our two previous interim reports. Our overall audit objective was to assess the
effectiveness of the Postal Inspection Service’s internal controls over firearms.

The Postal Inspection Service has made progress in effectively strengthening its
controls over firearms. The Postal Inspection Service’s Task Force inventoried all
Postal Inspection Service firearms and developed additional policy to ensure the future
accuracy of the firearms inventory. Based on the task force’s results, the Postal
Inspection Service implemented actions to correct the deficiencies identified in the
two interim Office of Inspector General (OIG) reports. However, based on our
reconciliation of the task force results, we identified 47 additional firearms that were not
included in the task force’s complete inventory. We recommended the Chief Postal
Inspector require responsible personnel to consult with the Department of Justice (DOJ)
to determine final resolution for the 47 firearms not effectively accounted for.

Although management agreed with our recommendation, management did not consult
the DOJ for final resolution of the lost, stolen, or missing firearms. Instead,
management included the 47 firearms in their established firearms tracking database
but not the DOJ database, as required. Therefore, management’s corrective actions
taken or planned are not responsive and do not fully satisfy the intent of our
recommendation. Not reporting the missing firearms to the National Crime Information
Center or consulting the DOJ for final disposition does not follow the required protocol
for reporting missing firearms.
Management’s comments and our evaluation of these comments are included in the
report. The Postal Inspection Service has taken initial steps to account for the
47 firearms. Therefore, we do not plan to pursue recommendation 1 through the formal
audit resolution process.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Sandra D. Bruce, Director, Oversight of Investigative Activities, or me at
(703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: James J. Rowan, Jr.
    Steven R. Phelps
Postal Inspection Service’s                                                  SA-AR-05-003
 Controls Over Firearms



                                 TABLE OF CONTENTS

 Executive Summary                                                                i

 Part I

 Introduction                                                                    1

     Background                                                                  1
     Objectives, Scope, and Methodology                                          1
     Prior Audit Coverage                                                        3

 Part II

 Audit Results                                                                   5

      Postal Inspection Service’s Firearms Inventory Task Force                  5
      Strengthened Firearms Accountability

           Assessment of Firearms Inventory Task Force Results                   6

           15 GLOCK Firearms and 1 Heckler & Kock Firearm Not Listed in          7
            the Task Force Inventory

           31 Remington Firearms Not Listed in the Task Force Inventory          7

      Recommendation                                                             8
      Management’s Comments                                                      8
      Evaluation of Management’s Comments                                        9

       Previous Inaccuracies in Physical Inventory                              10

          Previously Identified Inadequate Data in Firearms Accountability      11
          Systems

 Appendix A. Firearms Not Listed in the Postal Inspection Service’s             13
             National Asset Tracking System

 Appendix B. Management’s Comments                                              14
Postal Inspection Service’s                                                       SA-AR-05-003
 Controls Over Firearms


                                EXECUTIVE SUMMARY
 Introduction                 This capping report presents summary results of our
                              self-initiated audit of the Postal Inspection Service’s
                              Controls Over Firearms. Specifically, this report includes:
                              (1) the National Firearms and Ruger Task Force results
                              from its 100 percent physical inventory of all Postal
                              Inspection Service owned and authorized firearms
                              conducted from June to November 2003, (2) our
                              assessment of the task force results, and (3) results from
                              our two previous interim reports. Our overall audit objective
                              was to assess the effectiveness of the Postal Inspection
                              Service’s internal controls over firearms.

 Results in Brief             The Postal Inspection Service has made progress in
                              effectively strengthening its controls over firearms. The
                              Postal Inspection Service’s task force inventoried all Postal
                              Inspection Service firearms and developed additional
                              national policy to ensure the future accuracy of the firearms
                              inventory. Based on the task force’s results, the Postal
                              Inspection Service implemented actions to correct the
                              deficiencies identified in the two interim Office of Inspector
                              General (OIG) reports. In addition, these national policies
                              have strengthened the Postal Inspection Service’s
                              accountability over the firearms inventory.

                              Our first two interim reports stated that the Postal
                              Inspection Service did not have effective controls to
                              ensure accountability of its firearms. Specifically, there
                              were inaccuracies in the physical inventory, and inadequate
                              data and data integrity issues in firearms accountability
                              systems. This occurred because the Postal Inspection
                              Service had not been consistently reconciling its firearms
                              inventory. In response to recommendations included in the
                              OIG’s reports, on March 31, 2003, the Chief Postal
                              Inspector established a Firearms Inventory Task Force to:
                              (1) conduct a complete inventory of all Postal Inspection
                              Service owned and authorized firearms and (2) review
                              internal processes and procedures for the controls of
                              firearms.

                              However, based on our reconciliation of the May 2004 task
                              force results, we identified 47 additional firearms that were
                              not included in the task force’s complete inventory.
                              According to Postal Inspection Service officials, 16 of the



                                               i
Postal Inspection Service’s                                                       SA-AR-05-003
 Controls Over Firearms


                              47 firearms were personally owned by Inspectors who have
                              subsequently retired and the disposition of these firearms is
                              unknown. For the remaining 31 firearms, Postal Inspection
                              Service officials stated that most of the firearms were
                              destroyed before 1987, but could not provide documentation
                              to support the destruction. The Postal Inspection Service
                              took immediate actions during our review and developed
                              additional guidance to properly account for firearms,
                              including personally owned firearms. Also, destruction
                              records must now be retained in hard copy form for
                              ten years, and thereafter in electronic form indefinitely.

                              Additionally, Postal Inspection Service officials indicated
                              that they have conducted extensive paper and physical
                              research, including contacting the Bureau of Alcohol,
                              Tobacco, Firearms and Explosives, and following up with
                              the Postal Service and Postal Inspection Service destruction
                              committees. However, the Postal Inspection Service was
                              not provided any additional information to account for the
                              firearms.

                              Postal Inspection Service officials further stated that they
                              will not report the unaccounted for firearms to the National
                              Crime Information Center (NCIC) because the serial
                              numbers were not accurate. During our review of records
                              from manufacturers for the 31 firearms, we noted a few
                              instances where the serial numbers were transposed.
                              However, we did not find nor were we provided any
                              additional information to show more serial numbers were
                              inaccurate.

                              While we recognize that the 47 firearms, in some instances,
                              are more than 25 years old, all firearms must be accounted
                              for to ensure the public is not at risk of bodily harm and that
                              lost, stolen, or missing firearms are not used in future
                              criminal activity.

 Summary of                   We recommended the Chief Postal Inspector require
 Recommendations              responsible personnel to consult with the Department
                              of Justice (DOJ) to determine final resolution for the
                              47 firearms not effectively accounted for.

 Summary of                   Management agreed with our recommendation to consult
 Management’s                 with the DOJ to determine the final resolution for the
 Comments                     firearms not effectively accounted for.


                                               ii
Postal Inspection Service’s                                                        SA-AR-05-003
 Controls Over Firearms



                              Management also stated they entered the 47 firearms in
                              their firearms tracking database.

                              Management further stated that 16 of the firearms were
                              personally owned weapons, which were purchased by
                              individual inspectors, who had the option to carry this
                              firearm as an official duty weapon. For reasons unknown,
                              the respective serial numbers of these firearms were not
                              entered into the Postal Inspection Service’s firearms
                              tracking database. Management stated policies have been
                              revised, and in order to ensure a complete inventory, the
                              personally owned weapons were entered into the firearms
                              database.

                              Postal Inspection Service management stated the remaining
                              31 firearms were purchased from 1969 through 1976. The
                              Postal Inspection Service agreed these firearms must be
                              accounted for to ensure that the public is not at risk of bodily
                              harm and has added the serial numbers to their firearms
                              database categorized as “Lost/Stolen.” Management will
                              also annotate their database to state that because of the
                              lack of information required for inclusion into NCIC, these
                              weapons will not be reported as “Lost/Stolen” in the NCIC
                              database. Management’s comments, in their entirety, are
                              included in Appendix B of this report.

 Overall Evaluation of        Although management agreed with our recommendation,
 Management’s                 management did not consult with DOJ for final resolution of
 Comments                     the lost, stolen, or missing firearms. Instead, personnel
                              entered the serial numbers for the firearms into the
                              Inspection Service firearms database and categorized them
                              as “Lost/Stolen.” Therefore, management’s corrective
                              actions taken or planned are not responsive and do not fully
                              satisfy the intent of our recommendation. Not reporting the
                              missing firearms to the NCIC or consulting the DOJ for final
                              disposition does not follow the required protocol for
                              reporting missing firearms.

                              Since the Postal Inspection Service has taken initial steps to
                              account for the 47 firearms, we do not plan to pursue
                              recommendation 1 through the formal audit resolution
                              process.




                                               iii
Postal Inspection Service’s                                                                               SA-AR-05-003
 Controls Over Firearms


                                               INTRODUCTION
Background                         The Postal Inspection Service relied on the Postal
                                   Inspection Service Database Information System (ISDBIS)1
                                   to manage its inventory of approximately 6,000 firearms. In
                                   October 2001, the Postal Inspection Service implemented a
                                   management system to track the firearms inventory as
                                   accountable property using the FIREARMS Module of the
                                   Postal Inspection Service National Asset Tracking System
                                   (ISNATS). However, in March 2003, Postal Inspection
                                   Service management told the Office of Inspector General
                                   (OIG) the current database (ISNATS) had transition and
                                   migration issues as well as inventory variances between the
                                   “old ISDBIS and new ISNATS systems.”

                                   In June 2003, the Government Accountability Office (GAO)
                                   issued a report on its study of federal executive law
                                   enforcement agencies’ controls over firearms at the request
                                   of the House Committee on the Judiciary.2 On November 5,
                                   2002, the Postal Inspection Service ordered a national
                                   firearms inventory to be completed no later than close of
                                   business December 31, 2002. On December 31, 2002, the
                                   Postal Inspection Service amended its initial response to
                                   GAO indicating the information initially provided to GAO was
                                   incorrect because it only reflected the amount of firearms in
                                   inventory at the Postal Inspection Service training academy
                                   in Potomac, Maryland.

                                   According to the U.S. Postal Inspection Service Manual, all
                                   firearms used by inspectors and postal police officers are
                                   considered accountable property. These firearms are
                                   required to be accounted for from acquisition through final
                                   disposition, to include transfer, retirement, destruction, and
                                   lost, stolen, or missing.

Objectives, Scope,                 Our overall audit objective was to assess the effectiveness
and Methodology                    of the Postal Inspection Service’s internal controls over
                                   firearms. Our specific objectives were divided into
                                   three phases.

1
 Currently known as the Inspection Service Integrated Information System (ISIIS).
2
 The GAO found that all 18 federal agencies reviewed (over 95 percent of federal officers and agents authorized to
carry firearms) had policies and procedures for controlling and safeguarding firearms that were consistent with federal
internal controls standards and related criteria. In addition, 15 of the 18 agencies reported a total of 1,012 firearms as
lost, stolen, or otherwise not in their possession between September 1998 and July 2002, further indicating the need
for stronger controls.



                                                            1
Postal Inspection Service’s                                                                               SA-AR-05-003
 Controls Over Firearms


                                   The objective during our first phase was to determine
                                   whether firearms reported as lost, stolen, or missing were
                                   accurately transferred from the old database to the new
                                   accountability system. The objective of our second phase
                                   was to determine whether the Ruger firearms, purchased
                                   nationally3 in 1987, were accurately accounted for through a
                                   reconciliation of the national inventory. The objective of our
                                   final phase was to review the results of the Postal Inspection
                                   Service’s national firearms inventory and ensure all Postal
                                   Inspection Service owned4 and authorized firearms were
                                   accounted for and internal processes and procedures were
                                   strengthened to properly account for all firearms.

                                   To accomplish our objectives, we interviewed Postal
                                   Inspection Service management and field personnel. We
                                   also performed a comparative analysis of lost, stolen, or
                                   missing firearms in the current database ISNATS to the
                                   previous ISDBIS inventory. We reviewed firearms inventory
                                   results and supporting documentation. We obtained
                                   documentation from the manufacturer of Ruger firearms
                                   originally shipped to the Postal Inspection Service. We also
                                   obtained documentation from the Postal Inspection Service
                                   and researched the National Crime Information Center
                                   (NCIC)5 for lost, stolen, or missing Ruger firearms, and
                                   compared our findings to ISDBIS and the ISNATS
                                   inventories provided by the Postal Inspection Service.

                                   In addition, we contacted firearms manufacturers to obtain
                                   inventories and supporting documentation of firearms sold to
                                   the Postal Inspection Service or directly to postal inspectors
                                   for official duty. Manufacturers were unable to provide
                                   complete listings of firearms sales by purchaser; however,
                                   four provided a limited list or researched specific firearms by
                                   serial number.6 We compared our findings to the ISDBIS
                                   and the ISNATS inventories. We also interviewed sales
                                   representative from Sturm, Ruger & Company, Inc.


3
  National purchases are those Ruger firearms which were purchased by headquarters and do not include Postal
Inspection Service purchases of Ruger firearms by individual units.
4
  Postal inspectors can purchase a firearm directly from the manufacturer with a letter of authorization stating they will
use it for official duty.
5
  The NCIC, operated by the Federal Bureau of Investigation, is a computerized database used by authorized
agencies to report and access information concerning missing persons, wanted persons, criminal histories, stolen
guns, and other law enforcement information.
6
  Two manufacturers, Smith & Wesson and SIGARMS, were unable to provide the OIG with any information regarding
sales to the Postal Inspection Service or its inspectors.



                                                            2
Postal Inspection Service’s                                                         SA-AR-05-003
 Controls Over Firearms


                              We started the audit in December 2002, but suspended the
                              audit awaiting the national firearm inventory results from the
                              Postal Inspection Service. The Postal Inspection Service
                              conducted a 100 percent physical inventory of all Postal
                              Inspection Service owned and authorized firearms from
                              June to November 2003. However, we did not receive the
                              results until June 2004. We initiated the audit again upon
                              receiving these results and conducted further analyses from
                              July through September 2004 to assess the inventory
                              results.

                              We conducted the audit from October 2003 to April 2005 in
                              accordance with generally accepted government auditing
                              standards and included such tests of internal controls as
                              were considered necessary under the circumstances. We
                              did not evaluate the reliability of the data obtained from the
                              ISDBIS and the ISNATS inventories. However, this
                              information was sufficiently reliable to support the opinions
                              and conclusions in this report. Also, we did not conduct a
                              physical inventory of firearms to verify their existence. We
                              will verify the existence of firearms during subsequent
                              reviews of the Postal Inspection Service’s investigative and
                              administrative processes. We discussed our findings and
                              conclusions with appropriate management officials and
                              included their comments where appropriate.

Prior Audit Coverage          The GAO issued a report on Firearms Controls (Report
                              Number GAO-03-688, dated June 2003). The report
                              concluded that federal agencies, including the Postal
                              Inspection Service, have firearms controls, but could
                              strengthen controls in key areas. These areas included:
                              (1) recording and tracking firearms inventory data,
                              (2) maintaining, controlling, and accounting for firearms
                              inventories, (3) ensuring personnel and supervisory
                              accountability for firearms, and (4) requiring investigations,
                              and discipline when deemed appropriate, for individuals
                              determined not to have followed firearms accountability
                              procedures.

                              The GAO recommended and the federal agencies, including
                              the Postal Inspection Service officials, generally agreed to:
                              (1) reassess and modify, if necessary, existing firearms
                              controls based on generally accepted internal controls
                              standards and (2) document firearms controls in




                                                 3
Postal Inspection Service’s                                                        SA-AR-05-003
 Controls Over Firearms



                              agency policies and procedures so they can be consistently
                              understood and applied.

                              The Postal Inspection Service provided the GAO with
                              identified actions taken to strengthen firearms controls
                              consistent with the recommendation.




                                                4
  Postal Inspection Service’s                                                        SA-AR-05-003
   Controls Over Firearms


                                        AUDIT RESULTS
Postal Inspection               As reported in the two interim OIG issued reports, the Postal
Service’s Firearms              Inspection Service did not have effective controls to ensure
Inventory Task Force            accountability of its firearms. Specifically, there were
Strengthened Firearms           inaccuracies in the physical inventory, and inadequate data and
Accountability                  data integrity issues in firearms accountability systems. This
                                occurred because the Postal Inspection Service had not been
                                consistently reconciling its firearms inventory. However, the
                                Postal Inspection Service took corrective actions during the audit
                                to address the deficiencies included in the two interim OIG
                                reports.

                                According to the U.S. Postal Inspection Service Manual, all
                                firearms used by inspectors and postal police officers are
                                considered accountable property. These firearms are required to
                                be accounted for from acquisition through final disposition, to
                                include transfer, retirement, destruction, and lost, stolen, or
                                missing. In addition, Handbook IS-135, Firearms Policy, requires
                                the listing of all firearms in the accountable property module to
                                include Postal Inspection Service authorized and personally
                                owned firearms. Lost, stolen, or missing firearms may pose
                                serious risks to the public including the risk that missing firearms
                                may be used to inflict bodily harm or further criminal activity. The
                                U.S. Postal Inspection Service Manual was updated to properly
                                account for a firearm when the inventory discloses that a weapon
                                is lost/stolen or otherwise unaccounted for at the time of
                                inventory. The firearms coordinator will then be responsible for
                                ensuring that the information regarding the lost/stolen weapon is
                                entered into the NCIC.

                                On March 31, 2003, the Chief Postal Inspector established a
                                Firearms Inventory Task Force. Based on the Postal Inspection
                                Service’s task force report, the corrections for the deficiencies
                                identified in the two interim OIG issued reports have been made
                                and verified to be accurate. The task force completed a
                                100 percent physical inventory in November 2003 at all sites
                                where firearms were located. Also, the task force reviewed all
                                Postal Inspection Service owned and authorized firearms and
                                physically accounted for all Postal Inspection Service issued
                                weapons listed in ISNATS. Further, the review confirmed that
                                Postal Inspection Service divisions inventoried firearms
                                twice each year, during the domicile review of each inspector
                                and again through the yearly verification process conducted at
                                one of the required semiannual firearms qualifications.



                                                   5
  Postal Inspection Service’s                                                        SA-AR-05-003
   Controls Over Firearms


                                In addition, the task force developed a supplementary national
                                policy to ensure the future accuracy of ISNATS firearms data as
                                follows:

                                   •   The accuracy of ISNATS firearms data must be verified
                                       during the two required inventories of firearms each year.

                                   •   Weapons will remain assigned to the home division when
                                       an inspector is on a detail assignment to another division.

                                   •   Instructions were clarified on how to obtain authorization
                                       to carry a personally owned weapon. Additional
                                       instructions were issued to clarify the retirement of a
                                       personally owned weapon.

                                   •   Firearms destruction records must be retained in hard
                                       copy form for ten years, and indefinitely thereafter in
                                       electronic form.

                                   •   Guidelines were issued on inventories of reserve
                                       weapons.

                                   •   A new investigative case series was developed to track
                                       lost weapons and a second case series to track stolen
                                       weapons, along with a requirement to annually verify
                                       National Crime Information Center records for lost and
                                       stolen weapons.

                                These policies have strengthened the Postal Inspection
                                Service’s accountability over the firearms inventory. Our
                                assessment of the national task force firearms inventory results
                                is in the next section of this report.

Assessment of Firearms          The Postal Inspection Service’s task force met the intent of
Inventory Task Force            accounting for all Postal Inspection Service firearms as well
Results                         as strengthening internal controls of firearms. However,
                                discrepancies still exist with properly accounting for 47 firearms.
                                We identified 47 additional firearms that were not accounted for
                                during our reconciliation of firearms sold to the Postal Inspection
                                Service or individual postal inspectors for official duty. Further,
                                based on our review of the task force report, the 47 firearms
                                were not listed in the task force’s 100 percent inventory. Also,
                                based on our query of the NCIC, the 47 firearms were not listed
                                as lost or stolen. Specific details of the 47 additional firearms
                                follow:



                                                   6
  Postal Inspection Service’s                                                        SA-AR-05-003
   Controls Over Firearms




15 GLOCK Firearms and           GLOCK was unable to provide the OIG with a listing of firearms
1 Heckler & Koch Firearm        sold to the Postal Inspection Service or individual inspectors for
Not Listed in the Task          official duty. However, GLOCK researched specific serial
Force Inventory                 numbers provided by the OIG based on our analysis of the
                                Postal Inspection Service’s inventory. Our reconciliation of the
                                information provided by GLOCK to the Postal Inspection
                                Service’s inventory identified 15 firearms sold to the Postal
                                Inspection Service or individual inspectors for official duty that
                                were not listed in either inventory.

                                Heckler & Koch provided a partial listing of firearms sold to the
                                Postal Inspection Service. In addition, Heckler & Koch also
                                researched specific serial numbers identified by the OIG.
                                Reconciliation of data provided by Heckler & Koch with the
                                Postal Inspection Service’s inventory showed that one firearm
                                was not listed in either inventory.

                                According to Postal Inspection Service officials, these
                                16 firearms were purchased approximately 14 years ago as
                                personally owned weapons. Many of the inspectors who carried
                                these weapons have subsequently retired and the disposition of
                                these weapons is not known. Because of this issue, the Postal
                                Inspection Service has developed additional guidance for
                                personally owned weapons, which clarifies how an inspector
                                obtains authorization to carry the weapon and how the weapon
                                is retired from the Postal Inspection Service. Nonetheless,
                                these firearms are not effectively accounted for and resolution is
                                essential.

31 Remington Firearms           Remington provided a partial listing of firearms sold to the Postal
Not Listed in the Task          Inspection Service by serial number. In addition, Remington
Force Inventory                 researched specific firearms purchases identified by the OIG.
                                Based on our analysis, we determined that 31 firearms
                                purchased between 1969 and 1976 were missing and could not
                                be accounted for from the task force national firearms inventory.

                                The task force specifically researched the 31 firearms and could
                                not account for or provide any documentation on their
                                disposition. The Postal Inspection Service’s centralized tracking
                                system in ISDBIS during 1991 showed that 64 of 625 shotguns
                                were purchased before 1977. Thus, the Postal Inspection
                                Service concluded that most of the shotguns were no longer
                                in-service when ISDBIS went online in 1991. The earliest paper



                                                  7
 Postal Inspection Service’s                                                        SA-AR-05-003
  Controls Over Firearms


                               records available for review by the task force were dated 1987.
                               Therefore, the task force reported that most of the Remington
                               firearms were destroyed before 1987; however, there was no
                               documentation to support their destruction. The Postal
                               Inspection Service has subsequently developed additional
                               guidance to retain hard copy files for ten years and in electronic
                               form indefinitely.

                               While we recognize that these 47 firearms are more than
                               14 years old, and in some cases up to 25 years old, all firearms
                               must be accounted for to ensure the public is not at risk of bodily
                               harm and that lost, stolen, or missing firearms are not used in
                               future criminal activity. See Appendix A for a summary of serial
                               numbers for firearms with discrepancies.

Recommendation                 We recommend the Chief Postal Inspector:

                               1. Require responsible personnel to consult with the
                                  Department of Justice (DOJ) to determine final resolution for
                                  the 47 firearms not effectively accounted for.

Management’s                   Management agreed with our recommendation to consult with
Comments                       the DOJ to determine the final resolution for the firearms not
                               effectively accounted for. Management also included the
                               47 firearms in their firearms tracking database.

                               Management stated that individual inspectors purchased 16 of
                               the firearms as personally owned weapons under the Postal
                               Inspection Service’s letterhead program. The inspectors had the
                               option to carry these firearms as official duty weapons and, for
                               reasons unknown, the respective serial numbers of these
                               firearms were not entered into their firearms tracking database.
                               Management revised policy requiring entries to be made of all
                               firearms purchased by inspectors as federal law enforcement
                               officers under the letterhead program. In order to ensure a
                               complete inventory, the personally owned weapons were
                               entered into the firearms database. In addition, they will be
                               annotated as either active (inspector is currently using the
                               firearm as an official duty weapon) or inactive (inspector is
                               retired or no longer uses the firearm as an official duty weapon).

                               Management stated that the remaining 31 firearms were
                               Remington shotguns the Postal Inspection Service purchased
                               from 1969 through 1976. The Postal Inspection Service agrees
                               that these firearms must be accounted for to ensure that the


                                                 8
 Postal Inspection Service’s                                                        SA-AR-05-003
  Controls Over Firearms


                               public is not at risk of bodily harm, but they made the following
                               points:

                                  •   The Bureau of Alcohol, Tobacco, Firearms and
                                      Explosives determined through a tracer review that the
                                      Postal Inspection Service did not sell or otherwise give
                                      away the 31 firearms.

                                  •   The period of OIG review spans more than 35 years.

                                  •   During most of this period, firearms inventory and
                                      accountability were accomplished using manual
                                      inventory records.

                                  •   The Postal Inspection Service has strengthened its
                                      accountability over firearms by clarifying and changing its
                                      internal controls and procedures.

                               In order to account for these 31 weapons, management will add
                               the serial numbers to their firearms database and categorize
                               them as “Lost/Stolen.” However, management will annotate that
                               because of the lack of information required for inclusion into the
                               NCIC, these weapons will not be reported in NCIC as lost or
                               stolen.

Evaluation of                  Although management agreed with our recommendation, the
Management’s                   corrective actions taken or planned are not responsive and do
Comments                       not fully satisfy the intent of our recommendation. We
                               recommended that responsible Postal Inspection Service
                               personnel consult with the DOJ to determine final resolution for
                               the 47 firearms not effectively accounted for. However, Postal
                               Inspection Service personnel did not consult with the DOJ and,
                               instead, entered the serial numbers for the firearms into the
                               Inspection Service firearms database and categorized them as
                               “Lost/Stolen.” Management further stated that they did not enter
                               the firearms into the NCIC because there was a lack of
                               information required for inclusion.

                               We agree that some of these firearms are old, but the Postal
                               Inspection Service must account for all firearms to ensure the
                               public is not at risk of bodily harm and that lost, stolen, or
                               missing firearms are not used in future criminal activity.
                               Therefore, not reporting these firearms in the NCIC or not
                               consulting the DOJ for final disposition does not follow the
                               required protocol for reporting missing firearms.


                                                 9
  Postal Inspection Service’s                                                                         SA-AR-05-003
   Controls Over Firearms



                                   Since the Postal Inspection Service has taken initial steps to
                                   account for the 47 firearms, we do not plan to pursue
                                   recommendation 1 through the formal audit resolution process.

Previous Inaccuracies in           During phase one of our audit, firearms data in the new ISNATS
Physical Inventory                 database system did not reconcile with data in the old ISDBIS
                                   database system. Specifically, 23 firearms listed as lost, stolen,
                                   or missing in ISDBIS were shown as “In-Service” in ISNATS.
                                   However, a Postal Inspection Service-wide firearms inventory
                                   that was completed December 31, 2002, showed the same
                                   23 firearms were on hand in the ISNATS inventory. Further, a
                                   query of the NCIC7 database for the 23 firearms previously listed
                                   as lost, stolen, or missing showed that only 98 of the 23 firearms
                                   were listed as stolen weapons.

                                   Upon completion of the Postal Inspection Service Inventory in
                                   November 2003, the Firearms Inventory Task Force stated that
                                   all 23 firearms were accounted for and corrections to the lost or
                                   stolen portion of the database had been made and verified to be
                                   accurate by the Firearms Inventory Task Force and the National
                                   Threat Management coordinator. In addition, the inventory
                                   completed by the Firearms Inventory Task Force resulted in an
                                   additional 35 firearms that were not correctly listed as lost or
                                   stolen.

                                   According to the Postal Inspection Service Operations Support
                                   Group manager responsible for the firearms inventory, these
                                   inaccuracies were due to data migration problems with the 2001
                                   change in the firearms database from ISDBIS to ISNATS.
                                   Additionally, the firearms controlled by the firearms coordinator
                                   are not independently verified. Therefore, the accuracy of the
                                   inventory was dependent on the quality of the firearms
                                   coordinators’ physical inventory.




  7
    The NCIC is operated by the Federal Bureau of Investigation and is a computerized database used by authorized
  agencies to report and access information concerning missing persons, wanted persons, criminal histories, stolen
  guns, and other law enforcement information. Additional information about the NCIC is available at
  www.fas.org/irp/agency/doj/fbi/is/ncic.htm.
  8
    One of the nine firearms in the NCIC was listed with the wrong serial number.



                                                          10
  Postal Inspection Service’s                                                                           SA-AR-05-003
   Controls Over Firearms



                                   We reported these deficiencies in our first interim audit report,
                                   Postal Inspection Service Controls Over Firearms – Inventory
                                   Reconciliation (Report Number SA-AR-03-002, dated May 15,
                                   2003). We recommended the Postal Inspection Service:
                                   (1) conduct a complete physical inventory and reconciliation of
                                   data; (2) notify the GAO of the inventory errors; and (3) update
                                   the NCIC with the most current information. Management did not
                                   state whether they agreed or disagreed with the
                                   recommendations. However, management stated they were
                                   aware of the inventory variances between the old and the new
                                   inventory systems and established a Firearms Inventory Task
                                   Force in March 2003 to: (1) conduct a complete inventory of all
                                   Postal Inspection Service owned and authorized firearms and
                                   (2) review internal processes and procedures for the controls of
                                   firearms. The intent of this task force was sufficient in responding
                                   to the recommendations included in the first interim audit report
                                   issued by the OIG.

Previously Identified              There was inadequate data in the firearms accountability
Inadequate Data in                 systems. Specifically, 16 Ruger firearms were not listed in the
Firearms Accountability            national inventory. Further, the Postal Inspection Service:
Systems
                                       •    Reported seven of the sixteen firearms to the NCIC as
                                            lost, stolen, or missing, although they were not listed in
                                            the Postal Inspection Service inventories.

                                       •    Reported one of the seven firearms in the NCIC in 1999,
                                            even though it was transferred in 1995 to the United
                                            States Probation Department.

                                       •    Returned four of the sixteen firearms not listed in the
                                            national inventory to Ruger for credit.

                                       •    Did not list five firearms in either their inventory system or
                                            the NCIC.

                                   Additionally, the Postal Inspection Service did not return four
                                   firearms identified as returned in the current ISNATS database to
                                   Ruger.9 The Postal Inspection Service was not able to support
                                   the “Returned to Manufacturer” status. In addition, Ruger
                                   management stated they had no documentation indicating these

  9
   One of the four firearms was not part of the national purchase. However, we did come across it in our audit work of
  firearms returned to Ruger; therefore, it is included in this report.



                                                           11
Postal Inspection Service’s                                                       SA-AR-05-003
 Controls Over Firearms


                              firearms were returned to Ruger, and these firearms were not
                              reported to the NCIC. Also, based on the ISDBIS inventory
                              provided by the Postal Inspection Service, these four firearms
                              were not listed in the previous inventory.

                              Moreover, we identified 131 data integrity errors with Ruger
                              firearms. We recognized these errors could have been related to
                              the implementation of the new inventory database in 2001.
                              However, we provided this information to assist the Postal
                              Inspection Service with correcting its inventory accountability
                              systems. The data integrity errors were as follows:

                                                      Category                   Errors
                                      Duplicate Serial Numbers                        5
                                      Incorrect Make                                  7
                                      Incorrect Status Description                  112
                                      Incorrect Make and Status Description           4
                                      Incorrect Serial Number                         3
                                      Total Errors Identified                       131

                              We further identified 98 duplicate credits from Ruger for returned
                              firearms and confirmed that duplicate credits were issued. We
                              reported these deficiencies in our second interim audit report,
                              Postal Inspection Service Controls Over Firearms – Inventory
                              Reconciliation of Sturm, Ruger and Company, Inc. Firearms
                              (Report Number SA-AR-03-006, dated September 26, 2003). We
                              recommended the Postal Inspection Service: (1) correct
                              accountability for Ruger firearms and associated records; and
                              (2) review controls for firearms for adequacy to ensure supporting
                              documentation exists for firearms in its tracking system.

                              Although management did not state whether they agreed or
                              disagreed with the two recommendations, overall management’s
                              actions taken or planned were responsive to the intent of the
                              recommendations. On March 31, 2003, the Chief Postal
                              Inspector established a Firearms Inventory Task Force. The
                              intent of this task force was sufficient in responding to the
                              recommendations included in the second interim audit report
                              issued by the OIG.




                                                12
Postal Inspection Service’s                                             SA-AR-05-003
 Controls Over Firearms




                   APPENDIX A. FIREARMS NOT LISTED IN THE
                       POSTAL INSPECTION SERVICE’S
                     NATIONAL ASSET TRACKING SYSTEM


Manufacturer          Quantity                      Serial Numbers
  GLOCK                 15       BV735US         CCU864US CCU894US      CCU896US
                                 EV011US          EV014US     EV017US    EV018US
                                 EV019US          EV021US     EV023US    EZ442US
                                 EZ451US          FL493US     FL495US

  Heckler &               1      2417158
    Koch

  Remington               31     S279206V        S272900V   S271061V    S269329V
                                 S280468V        S576487V   S577428V    S574646V
                                 S568854V        S577219V   S574529V    S575261V
                                 S575172V        S577424V   S575225V    S577271V
                                 S575295V        S577548V   S575358V    S577528V
                                 S577304V        S052655V   S574720V    S577290V
                                 S577536V        T266995V   S577235V    S059125X
                                 S575242V                   S053375V    S052654V




                                            13
Postal Inspection Service’s                            SA-AR-05-003
 Controls Over Firearms



                   APPENDIX B. MANAGEMENT’S COMMENTS




                                  14
Postal Inspection Service’s        SA-AR-05-003
 Controls Over Firearms




                              15
